<html>
<title> - CHALLENGES IN GATEWAY COMMUNITIES OF NATIONAL PARKS</title>
<body><pre>[Senate Hearing 115-532]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-532

          CHALLENGES IN GATEWAY COMMUNITIES OF NATIONAL PARKS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                             NATIONAL PARKS

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 19, 2018

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-538                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b1b042b081e181f030e071b4508040645">[email&#160;protected]</a>                 
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota
                                 ------                                

                     Subcommittee on National Parks

                         STEVE DAINES, Chairman

JOHN BARRASSO                        ANGUS S. KING, JR.
MIKE LEE                             BERNARD SANDERS
CORY GARDNER                         DEBBIE STABENOW
LAMAR ALEXANDER                      MARTIN HEINRICH
JOHN HOEVEN                          MAZIE K. HIRONO
ROB PORTMAN                          TAMMY DUCKWORTH

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Michelle Lane, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Brooks, Democratic General Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENT

                                                                   Page
Daines, Hon. Steve, Subcommittee Chairman and a U.S. Senator from 
  Montana........................................................     1

                               WITNESSES

Sholly, Cameron, Superintendent, Yellowstone National Park, 
  National Park Service, U.S. Department of the Interior.........     4
Baltzley, Patricia, Chair of the Board of Trustees, Gardiner 
  Public Schools.................................................    10
Costello, Marysue, Director, West Yellowstone Chamber of Commerce    17
Purvis, Deb, President, Cooke City Park County Water District....    23
Sacca II, Richard Anthony, Emergency Manager, Office of Emergency 
  Management, Flathead County, Montana...........................    31

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Baltzley, Patricia:
    Opening Statement............................................    10
    Written Testimony............................................    13
Berg, Bill:
    Statement for the Record.....................................    53
Costello, Marysue:
    Opening Statement............................................    17
    Written Testimony............................................    19
Daines, Hon. Steve:
    Opening Statement............................................     1
Purvis, Deb:
    Opening Statement............................................    23
    Written Testimony............................................    25
Sacca II, Richard Anthony:
    Opening Statement............................................    31
    Written Testimony............................................    33
Sholly, Cameron:
    Opening Statement............................................     4
    Written Testimony............................................     7

 
          CHALLENGES IN GATEWAY COMMUNITIES OF NATIONAL PARKS

                              ----------                              


                        FRIDAY, OCTOBER 19, 2018

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                 Gardiner, Montana.
    The Subcommittee met, pursuant to notice, at 11:05 a.m. in 
the Multipurpose Room, Gardiner Public School, 510 Stone 
Street, Gardiner, Montana, Hon. Steve Daines, presiding.

            OPENING STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines [presiding]. The Subcommittee will come to 
order.
    I would first like to thank everyone for joining us here on 
this absolutely beautiful day in Montana. I want to extend my 
special appreciation to Randy Russell, the school's 
Superintendent, who could not be here today. Also to Mike Baer, 
the Principal, Mike LaPage, the Custodian, as well as Tom 
Nelson, who I just chatted with, who is the head of 
Maintenance, all of whom are here today and have helped make 
today's event possible.
    Today is a very special day because we are bringing the 
official work of the United States Senate right here to 
Gardiner, Montana. This is a great opportunity for kids of all 
ages. I know we have a few in the audience. But I am also very 
aware of the fact, as a father of four children who were raised 
here in Montana, that it is a special holiday week.
    I know in the Daines' household growing up that oftentimes 
meant going hunting somewhere in Montana, usually antelope 
hunting this time of year. So I know we have a lot of kids who 
are out there enjoying being outside, which is actually a good 
place for young people to be on a day like today.
    But this is a great opportunity for kids of all ages 
because whether you attend school here or if, like one of our 
witnesses, you grew up here, you get to gain appreciation for 
how the Federal Government works.
    We are here today in this great school, sitting literally 
minutes away from the only year-round entrance to Yellowstone 
National Park. Most people in Washington, DC, and other places 
around the United States dream of visiting Yellowstone maybe 
once in their lifetime. But that isn't news to this room when 
you have the luxury of living in this great town, it is such a 
special place. You also experience the unique challenges that 
come when everybody else, literally the entire world, wants to 
experience this magic place as well.
    I have a lot of memories of being right here in Gardiner as 
a kid. I have memories of taking the Buick station wagon with 
the wood veneer siding on it, a Griswold kind of station wagon, 
and asking permission from my dad if, for our senior prom, I 
could come down to Chico for prom, back in 1979.
    But I think of all the countless times that we would load 
up the car and come down to Yellowstone Park and this very 
special part of our nation as a kid whose parents moved to 
Bozeman back in 1964. So this really is home in many ways.
    It is such an honor to be here. This is called a hearing. 
It is meant to hear, that is why it is called a hearing. We 
will have some great witnesses here that I will introduce in a 
minute.
    We are here to talk about the fact that--the secret about 
this special place is out. A lot of people are visiting our 
national parks and, particularly, Yellowstone National Park.
    What does that mean? Well, that can be a very good thing. 
For starters, visitors to Montana spent $3.2 billion in 2017 
and much of that was near our national parks. In fact, we know 
they spent about $275 million in Glacier National Park and 
about $500 million in Yellowstone and the surrounding areas 
last year, according to the National Park Service (NPS). So 
this increase in spending can certainly lead to more jobs, 
which is good news for our gateway communities.
    However, all this increase in spending means one thing--we 
are seeing more visitors to our parks. Don't get me wrong, I 
know at times we like to keep our secret hunting and fishing 
places secret and our secret hiking places secret. You are 
looking at a Senator who likes to spend a lot of time hiking 
miles and miles in the backcountry here, not too far from where 
we are seated.
    I love seeing people coming to Montana and I love the fact 
that they visit our national parks, especially our parks right 
here in Montana. But I chair the National Parks Subcommittee, 
so I am very honored with what I consider my home parks, 
Yellowstone National Park and Glacier National Park, as a 
Montanan. I also realize with increased visitation comes some 
strain. Just like we talk about deferred maintenance inside the 
parks themselves, the increase in visitation can strain 
resources in gateway communities as well. I know our witnesses 
today are here to talk more about the specifics, everything 
from responding to fires, to just the pavement on the streets, 
the sidewalk in front of the fly shop, the increase in traffic 
and so forth and just overall wear and tear.
    In addition to routine infrastructure needs, it is my 
understanding that the very school we are sitting in faces a 
fairly unique funding challenge. We will hear more about that 
issue from our witnesses, but I would like to commit to working 
on that issue as we move forward.
    I would also like to speak to a related matter. In a 
business meeting in Washington, DC, just a few weeks ago, we 
had one of the most productive Energy and Natural Resources 
meetings in my six years in Washington, DC. We moved a 
tremendous amount of bills related to conservation, public 
lands and protecting our national parks that I had seen in a 
long time. In fact, we moved over 40 bills, 40. The news media 
did not pick a lot of that up.
    There were some good things going on in Washington, DC, in 
that Committee that day and some of them are related to Montana 
issues. One of those addressed was very relevant to why we are 
here today. We passed the Yellowstone Gateway Protection Act 
that will permanently protect, for generations to come, the 
local economy that relies on tourism and outdoor recreation 
here. Secretary Zinke also recently acted to withdraw this same 
area from mineral entry, immediately protecting the special 
place for 20 years.
    All this shows the special balance Montana has between 
protecting the environment and supporting local economies. It 
also shows our commitment to protecting and strengthening our 
local economy driven by tourism and outdoor recreation, mostly 
due to neighboring Yellowstone. I remain committed to seeing 
this legislation pass both chambers of Congress.
    As a native Montanan I take great pride in iconic parks 
like Yellowstone and Glacier, but also in our state's lesser 
known national treasures such as the Grant-Kohrs Ranch National 
Historic Site just 50 miles north of Yellowstone and other 
wonderful sites like the Little Bighorn Battlefield.
    The National Park Service Centennial was a banner year with 
record-setting visitation numbers. As we continue to build upon 
that success, it is vital that we begin to plan for the future. 
You think about the visionaries that launched this, Teddy 
Roosevelt and others, that vision they had. We need to make 
sure that we set forward a process of funding mechanisms and 
plans that will protect that vision for years to come and not 
just for the parks themselves but for these critical gateway 
communities and the challenges they face outside the parks.
    Before I introduce the witnesses, I want to thank everyone 
who came out today. I will also just remind everyone about the 
format today. I will introduce everyone. Each witness will have 
five minutes to give their testimony. Following the testimony I 
will ask questions, during which time each witness will have up 
to five minutes to respond. Because we are not in Washington, 
DC, today, thank goodness----
    [Laughter.]
    ----I am not going to be too strict with the timer. But I 
do want to try to keep it reasonably close to that time limit. 
Once we finish up the questions I will gavel out the hearing.
    There are no questions from the audience in an official 
hearing. As a reminder, this is an official hearing of the 
United States Senate and everything said here today will be 
included in the official record, including my Griswold comment, 
is that right?
    [Someone in the background:] That's right.
    Senator Daines. Okay, now we will get to the witnesses.
    Joining us this afternoon is Mr. Cameron Sholly--I know he 
prefers to go by ``Cam''--the Superintendent of Yellowstone 
National Park. Day 2 on the job, Cam. Welcome.
    We have Ms. Pat Baltzley, Board of Trustees Chairman of the 
Gardiner Public Schools.
    We have Ms. Marysue Costello, Director of the West 
Yellowstone Chamber of Commerce.
    We have Ms. Deb Purvis, President, the Cooke City Water 
District, one of my favorite towns in Montana, by the way. It 
is true. I like Silver Gate, too. Cooke City is great.
    And Mr. Rick Sacca, Emergency Manager, Flathead County, 
Montana.
    We have some Glacier Park representation here as well and 
then we pretty much have Yellowstone National Park surrounded 
here with these gateway communities witnesses. I want to thank 
you all, again, for being here with us.
    At the end of your testimony, we will begin questions. Your 
full written testimony will be made part of the official 
hearing record.
    Mr. Sholly, welcome back, I should say. I know you grew up 
here in the Gardiner area, and we are really glad to have you 
back. I know that you have only been on the job, I guess, about 
48 hours here on the ground. We are glad you are back. When you 
are ready, please go ahead with your testimony.

         STATEMENT OF CAMERON SHOLLY, SUPERINTENDENT, 
    YELLOWSTONE NATIONAL PARK, NATIONAL PARK SERVICE, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Sholly. Thank you for that introduction, and it is 
fantastic to be here.
    As I mentioned outside, I think the last time I was in this 
building it was about 30 years ago. So it's special to be back 
with all of you.
    Thank you for holding this hearing today on such an 
important topic. Relationships with gateway communities is one 
of the most important things that we focus on in the National 
Park System, the National Park Service.
    I know how much you value, Senator, parks and public lands 
here in Montana and across the country. Thank you for your 
support. I look forward to working closely with you in this new 
capacity that I'm in.
    I really want to thank the witnesses for being here and 
giving us, especially me in the beginning of my second day, 
their insights and perspectives about how we can work best 
together, the issues that you're facing and how I can work and 
the team in Yellowstone can work collaboratively with you to 
address those issues.
    As you know, the National Park Service manages iconic 
resources in destinations that truly represent some of the very 
best that America has to offer. Our parks attract hundreds of 
millions of visitors each year and the communities adjacent to 
our parks are absolutely essential to helping provide our 
visitors important services, accommodations, food and beverage, 
gasoline, other amenities, all which help greatly improve and 
contribute to the visitor experience.
    Growing visitation at national parks is reflected in the 
vitality of these gateway communities, as you mentioned, not 
just here but across the country. And in 2017 visitors to our 
national parks in the U.S. spent over $18 billion in gateway 
communities. Annually, we estimate that Yellowstone visitors 
spent almost $500 million in local communities and support more 
than 7,000 jobs.
    National visitation has gone up by about 50 million just in 
the last four or five years. Here in Yellowstone, average 
annual visitation has jumped by about 40 percent from where it 
was just a decade ago. Near Gardiner, in West Yellowstone, 
vehicle traffic counts are up by 60 percent in that 10-year 
period. The entrance near Cooke City and Silver Gate is up 37 
percent, and the east entrance through Cody is up by almost 50 
percent.
    So as you mentioned, Senator, there are positives that come 
along with increased visitation levels. As you know, those 
increases have had a wide range of impacts on infrastructure 
and resources.
    The National Park Service has an existing deferred 
maintenance backlog of $11.6 billion across our entire system 
of which nearly $500 million is right here in Yellowstone. So 
we need to take aggressive actions to make infrastructure 
improvements across the system.
    As you know, and as you've mentioned, Chairman, Secretary 
Zinke has made it his highest legislative priority to establish 
a dedicated fund to address this backlog and we appreciate your 
co-sponsorship of Senate bill 3172 which would help really 
launch a multi-billion-dollar effort to rebuild park 
infrastructure--probably one of the most important things we 
can do now and one of the biggest challenges that we face 
moving forward.
    Wherever possible, it's important that we work together on 
actions that help maintain positive economic activity but also 
that we work together to lessen and mitigate threats to park 
resources and values and continue to do this while we improve 
visitor experiences. It's not just for the values and the 
experiences inside our boundaries, but also outside our 
boundaries and in and around these special gateway communities.
    Along those lines, also, very pleased with Secretary 
Zinke's recent announcement on the 20-year mineral withdrawal, 
just here north of Yellowstone. I think it's a highly 
commendable action. He recognized, along with Secretary Purdue, 
the importance of preserving the community's larger recreation, 
tourism and outdoor cultures. I really do think this is a very 
tangible example of a decision that helps us protect lands 
outside of the boundary that are closely connected to shared 
conservation and recreation values, especially in places like 
this that are in such close proximity to great places like 
Yellowstone.
    Although Gardiner and Mammoth are separated by five miles 
and a state line, they really do function as one community. Our 
employees who live in Mammoth rely on services provided in 
Gardiner and, similarly, residents that live in Gardiner rely 
on services provided in Mammoth--a medical clinic, preschool, 
the daycare.
    As we succeed together, we also face a lot of the same 
challenges. Affordable housing continues to be an issue. Like 
the park, the Gardiner school has substantial infrastructure 
needs. These challenges can make it difficult for Gardiner 
businesses, for our concession's operators in the park and for 
NPS operations to attract and retain employees with families.
    The NPS continually strives to improve the public's access 
to our national treasures; however, if visitation continues to 
increase, we must also increase our ability to collaborate with 
one another.
    Yellowstone, like other national parks, needs the 
perspectives of its partners to address both challenges and 
opportunities before us.
    Mr. Chairman, this concludes my statement, and I'm happy to 
answer any questions you might have.
    Thank you again for holding this hearing.
    [The prepared statement of Mr. Sholly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Superintendent Sholly.
    Just a comment on that $11.6 billion maintenance backlog. 
That was one of those 40 bills that was moved a couple weeks 
ago. It was such a great moment when we saw two Democratic 
senators, Mark Warner and Angus King, come together with two 
Republican senators, Lamar Alexander and Rob Portman on the 
committee that I chair, the National Parks Subcommittee, to 
move that bill through.
    Fights tend to sell more media and press in DC than getting 
something done. I can tell you we got something done and did 
not get a lot of press about it, but that is a great bill and 
it is not going to add to the deficit. We are going to, 
hopefully, get this passed here, maybe in the next couple of 
months in this lame duck session. I am hoping. That is my goal 
to get this done because as Angus King, who was a Governor of 
Maine and is now a Senator, said, ``deferred maintenance is 
debt.'' It really is and we need to deal with it.
    So hopefully we will have some better news for you here. A 
great way to start off your new job here in Yellowstone.
    Mr. Sholly. Thank you.
    Senator Daines. Alright, Ms. Baltzley.

STATEMENT OF PATRICIA BALTZLEY, CHAIR OF THE BOARD OF TRUSTEES, 
                    GARDINER PUBLIC SCHOOLS

    Ms. Baltzley. Good morning, Senator Daines and others 
gathered, for this opportunity to share the challenges of 
gateway communities.
    My name is Pat Baltzley, and I am Chair of the School Board 
of Gardiner Schools. We welcome you to our school in this 
beautiful location surrounding us. We're lucky to be here.
    To begin with, this has been a tough stretch for our school 
district--arguably one of the most challenging in its history. 
We face severe budgetary constraints due to a change in 
financial structures, we face an infrastructure in need of 
maintenance due to aging, and we face declining enrollment due 
to a change in our community's housing situation. The impact of 
these factors has hit us hard as we've been a school district 
committed to providing the best educational experiences for our 
students. We are proud of the school district's commitment to 
excellence and to supporting a quality education for our 
students.
    Gardiner School has consistently been ranked as one of the 
top schools in the State of Montana. Recently the U.S. News and 
World Report once again rated Gardiner as the number one school 
in Montana.
    As an educator myself for over 40 years, having grown up in 
the Northern Virginia school system and having worked in 
several large school districts in Maryland, including Baltimore 
County, I've been so impressed with the quality of the teaching 
staff and the students in this small, unique community.
    There are some bright spots on the horizon that include a 
partnership with the newly created North Yellowstone Education 
Foundation, a rallying community support system and connections 
with other partners and support systems, but we are in a budget 
shortfall and still need help to stabilize.
    While the school district understands and acknowledges that 
the past financial benefit received from the Yellowstone 
National Park was unique to Gardiner, the change forced drastic 
changes to our educational programming. In the past, the school 
received money from the National Park Service for its students 
who attended school in Gardiner. This allowed the school to 
buildup a significant cash reserve and to spend liberally on 
programs, staff and resources. The NPS no longer provides this 
funding and the State of Wyoming has picked up, with your 
support if you remember, that responsibility for the students 
who reside inside the park in Wyoming.
    Because another state is now providing money for these 
students, Montana now deducts that amount from the funding they 
provide to Gardiner Schools. The money from Wyoming goes into 
Gardiner School's general fund, reducing local taxpayer funding 
obligations by nearly 50 percent while maintaining the general 
fund's maximum budget allowed by the state.
    Furthermore, and of great concern, is that Gardiner 
School's enrollment is falling--169 students are currently 
enrolled, K-12, as of this fall. When I came on the school 
board in 2013, there were close to 250. Enrollment during the 
last three years has been the first time the number of students 
has been below 200 in decades. Declining enrollment is a result 
of large-scale trends that face our community, including 
housing shortages, escalating real estate prices, transition of 
housing from family residents to vacation rentals and the 
changing hiring practices of the area's major employers. Fewer 
students equal less funding.
    With our changed financial situation and with declining 
enrollment, major changes were needed to balance our general 
fund budget. The school board had to make many tough decisions 
over this past year to bring the budget in balance. The school 
district was using 97 percent of its general fund budget for 
staffing costs compared to 80 to 85 percent for most other 
schools in Montana. This prompted the school board to 
investigate options to stabilize the budget and ensure the 
long-term sustainability of the school. We reduced our staff, 
the equivalent of 7.5 full-time employees which for a small 
school district has a huge impact. Most upsetting of all was 
having to make the changes that affected the lives of our 
friends, families, students and fellow community members.
    As with any aging infrastructure, one part of our building 
is over 50 years old with a newer section, built after fire in 
the 1980s, which is 30 years old. There's a need to ensure that 
our school environment is safe and healthy for our students. 
With this aging infrastructure and immediate maintenance 
concerns, the board has made some recent maintenance decisions 
with large financial impact.
    We completed a part of our roofing replacement project 
utilizing a 1-to-1 matching grant of $200,000 from the Gardiner 
Resort Tax that helped us replace a portion of our roof for 
$475,000. We still have another 35 percent to replace that is 
30 years old. This will be another significant cost.
    We have just begun a project to replace and repair our 
three aging boilers and our infrastructure system for our 
boilers. This project could cost the Gardiner School District 
close to $650,000. An application has been made to the Gardiner 
Resort Tax Board for $250,000 but more financial support is 
needed.
    We need help in stabilizing our financial structure so that 
we can continue to provide the quality of education that we 
have been able to provide in the past and that every student 
deserves. This means a stabilization of impact aid that we 
receive. If it gets reduced or eliminated entirely, then we 
would immediately need to reduce our staff further by about 
three more teachers, close to $160,000.
    The current method for quantifying the number of families 
that work in or near Yellowstone is inadequate as we have 
families that work in the park, although their offices are not 
inside the park boundaries which is a qualification for being 
factored into our impact aid funds.
    Gardiner Public Schools are in a great part dependent on 
public lands, and we are at the whim of global market forces. 
In order to maintain our community and school, we need help.
    The school district is working with the larger community to 
determine how as a community we can address the housing needs 
in a landlocked community surrounded by national and state 
land. Our school itself has part of its property on national 
park land. One of our questions is whether there is a 
possibility for exchange of national or state land to support 
the building of needed, affordable housing in our community.
    The school would like to take advantage of an opportunity 
through the National Park Restoration Act, U.S. Senate bill 
2509 or House bill 5210 or similar legislation for federal 
assistance in such a way that does not impact funding options 
for the park itself. We are involving our community in 
political advocacy through awareness of these bills and have 
circulated a petition to garner support for our position. We 
have gathered 840 signatures to this date in support of this 
bill.
    Your support in general to continue commitment to our 
national educational system, including financial support for 
aging infrastructures in the United States, as well as your 
support for our specific needs as a gateway community, is 
significant and needed.
    Thank you for this opportunity to share our challenging 
situation as we work to educate our students in this unique 
environment.
    [The prepared statement of Ms. Baltzley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you very much.
    Ms. Costello.

   STATEMENT OF MARYSUE COSTELLO, DIRECTOR, WEST YELLOWSTONE 
                      CHAMBER OF COMMERCE

    Ms. Costello. Honorable Senator Daines and other guests, I 
am pleased to be asked to present information to you today 
about gateway communities, national parks and the impacts faced 
by each, and full well knowing that each impacts the other.
    Gateway communities, such as those represented at this 
hearing, economically rely on tours and recreation and the 
environmental health that drives those activities. They are our 
lifeblood. Many, many things can affect that blood flow. Public 
policy, weather and natural events nearby and even worldwide 
can constrict or open the flow. Specifically, today I would 
like to talk about fires in national parks, dramatic increases 
in visitation and access.
    The item that gains the most notoriety is fires. They are 
dramatic, photogenic and alarming, and they go on for months. 
In recent years Yellowstone's gateway communities have gone 
through several iterations of impactful fires.
    Due, I believe, to the recognition that entities cannot 
work in isolation, there has been a significant shift to 
transparency and cooperation. Two summers ago, and again this 
summer, West Yellowstone has been directly affected by fires 
that encompassed both Forest Service and Park Service lands. 
Both Gardiner and Cooke City have had their share of challenges 
by fires too.
    Some citizens are of the opinion that all fires should be 
managed to be suppressed, while others are more accepting that 
fire is critical to the maintenance of healthy forests and will 
be a part of the landscape. Regardless of those positions, West 
Yellowstone has, especially in more recent years, experienced 
tremendous openness and cooperation from public agencies, and 
we are grateful. We feel our local representatives are included 
in the decision-making processes and we value, too, the joint 
participation in public meetings and information dissemination.
    Fires definitely have a price tag across a broad spectrum 
of resources: public, private sector and individual citizen. 
Balancing benefit to cost will always be challenging and we, as 
gateway communities, highly value the assurance that we will be 
contributors to the discussion and the decisions.
    We, in West Yellowstone and many locations throughout the 
regions, were first affected this summer by smoke beginning in 
early July. First was the impact from the fires in California 
and Oregon, then came Canada and on to Idaho before there were 
fires burning in our more local areas. It would be my 
estimation that there were very few days between the last two 
weeks of July and mid-September that smoke, in varying degrees, 
was not in the air.
    More than a century of hard suppression of wildland fires 
and the unintended and detrimental impact it has had on our 
forests cannot be overcome quickly. Nevertheless, it is time 
for further exploration into a more comprehensive plan to allow 
fires their natural role while not impacting the entire West. 
We do not say this lightly and fully recognize that any 
solutions need to be openly discussed and with all parties 
having seats at the table.
    Next, I would like to address the dramatic increase in 
visitation over the past few years and its impacts. Yellowstone 
is known worldwide, and for many internationals it is on their 
must-see list. Traffic jams sometimes miles and hours long, 
overflowing parking lots and restrooms, challenges with 
language, disrespect for wildlife and the fragility of the 
unique geology place grave demands on Yellowstone's resources. 
They all dramatically affect the Park and bleed out directly 
and indirectly into the bordering communities.
    The way will not be easy. We look to and for solutions that 
will enhance visitor experience while not adversely offsetting 
the economies of gateway communities. With over four million 
visitors, five gateways and four U.S. highways, answers will 
need to be multi-faceted, responding to an army of stakeholders 
and, in the end, providing maximum security for the incredible 
unique resource that is Yellowstone.
    We appreciate the Park Service's commitment to the research 
that is already well underway and that will inform and guide 
visitor management decisions and planning. Additional funding 
for all our parks and monuments, as they grapple with current 
increased visitation and that which is expected to come, would 
be a blessing.
    I wish to express appreciation to Senator Portman and to 
you, Senator Daines, for all the work on championing the 
Restore Our Parks Act. It will be critical, I believe, to this 
area and to all national parks. This Act, by addressing the 
backlog of infrastructure needs, would enable more of the 
regular park appropriations to find its way into additional 
staffing, integral to addressing many of the visitor management 
challenges.
    Lastly, at this time I would like to address access to 
public lands for West Yellowstone. To our east lies Yellowstone 
National Park and on our other three sides the vast majority of 
land belongs to the United States Forest Service. We are, 
truly, an impacted community. Hence our survival depends on 
access to public lands.
    West Yellowstone has long desired year-round access to the 
Park instead of the current fall and spring closures of our 
gate. Each closure is approximately six weeks in length and the 
result is very like a spigot being turned off. Certain seasonal 
affects, of course, would continue. We are, after all, a 
seasonal area. However, our community would be able to better 
develop a more sustainable year-round economy with such a 
change and visitors would be more easily satisfied.
    With Yellowstone on the bucket list of both citizens and 
international visitors throughout the world, rarely is ``time 
of the year'' considered. Yellowstone is the goal. Everyone 
understands that weather can impact a vacation; however, the 
planned, extended closures are confusing and many visitors 
arrive to be greatly disappointed. Access. It's essential.
    Thank you again for committing to be here in Gardiner and 
in Yellowstone and asking to hear from local voices. We 
appreciate your time and dedication.
    [The prepared statement of Ms. Costello follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Ms. Costello.
    Ms. Purvis.

        STATEMENT OF DEB PURVIS, PRESIDENT, COOKE CITY 
                   PARK COUNTY WATER DISTRICT

    Ms. Purvis. Senator Daines, thank you so much for taking 
the time to reach out to our gateway communities. I'm really 
grateful for the opportunity to tell you about the challenges 
to our tiny little community.
    As you know, Cooke City is located--we're isolated. We're 
between Yellowstone National Park and then there's about ten 
miles of highway in Montana and on the other side of that is 
Wyoming. So we're truly an island and that presents unique 
problems with our highways and plowing and being able to access 
our roads. We have no cell phone service. Some people really 
enjoy that. Our visitors do not as much. We also have very 
limited internet.
    Senator Daines. If you get to the top of Granite Peak, you 
can get cell service.
    [Laughter.]
    Ms. Purvis. Yes, you can hike up to the hill.
    [Laughter.]
    The little community, Silver Gate and Colter Pass, on 
either side of Cooke City have very limited internet. We have 
to operate on satellite internet until you use up all of your 
limited data--they generously give you 10 gigs of data. When 
you use that up you're down to dial-up speeds.
    But mostly what I want to talk to you about today is our 
wastewater problem. Cooke City has a really big wastewater 
problem. As with all of us, tourism is the mainstay to our 
economy. We're blessed and challenged with the rapid and 
significant increases in the number of people who visit our 
area. So just wastewater is not a real popular topic to talk 
about, but I'm going to give you some idea of what we're 
facing.
    First of all, everybody in Cooke City, business and private 
residence, has their own onsite septic system. We have no way 
to manage community wastewater. In 2009, we had 4,000 visitors 
to our community center. In 2017, we had 23,000. You know about 
the gate interest we have, and we also recently have had a lot 
more bus traffic. This summer we had 222 buses carrying 6,660 
people and mostly they stopped at the community center to use 
the bathroom.
    The businesses on the south side of Main Street lease space 
from the National Forest Service for their drain fields. That 
permit is set to expire in two months, in December of this 
year, so we're scrambling to work on this.
    In 2010, we did build the community center, and they have 
their own onsite system. They sized that for 600 gallons per 
day based on best estimates and the DEQ usage table. The 
reality is that in August of last year, they averaged 990 
gallons per day with a peak day of 2,340 gallons. And so, they 
had taken some steps to address this. We were able to use some 
of our resort tax money for matching funds for a grant to get a 
PER, a Preliminary Engineering Report, which is the first step 
to address this. That initial draft is due out in March 2019, 
and we hope to have an election to form a sewer district in May 
2019.
    We are working with other organizations as well. I traveled 
to Helena this spring to give testimony at a local government 
legislative subcommittee hearing. We've also been able to work, 
not closely, with Park County Commissioners to partner and gain 
assistance and work toward solving this problem, and they've 
been wonderful to work with. We've also had just a real light 
at the end of the tunnel in that the National Forest Service 
approached us recently and offered, well, they didn't offer to 
give it to us, I'm sure, but----
    [Laughter.]
    --offered six parcels of land and asked, you know, how 
would this work for your community drain field? The engineer 
and I were just blown over. We didn't quite know what to do 
with that. So there's a real spirit of cooperation there, and 
that's been really refreshing.
    So, in conclusion, Cooke City is not a city, we're not 
incorporated. We're not a city or a county. We're very remote. 
We have no ability to tax that a political subdivision or a 
government entity does. We're a very important gateway to 
Yellowstone National Park--220,000, roughly, people go through 
the Northeast Gate. We need to be able to provide basic 
sanitation to our citizens and our guests while still 
safeguarding the natural resources.
    Thank you.
    [The prepared statement of Ms. Purvis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you, Ms. Purvis, I appreciate the 
testimony.
    Mr. Sacca.

   STATEMENT OF RICHARD ANTHONY SACCA II, EMERGENCY MANAGER, 
    OFFICE OF EMERGENCY MANAGEMENT, FLATHEAD COUNTY, MONTANA

    Mr. Sacca. Good morning, Senator Daines and ladies and 
gentlemen.
    My name is Rick Sacca. I'm here from Flathead County, up in 
Northwest Montana, where I serve as both the County Emergency 
Manager and the County Coordinator for Montana State Disaster 
and Emergency Services. I'm also fortunate to be the Local 
Emergency Planning Committee, or LEPC, Chairman. And in my part 
time I'm the Assistant Chief of Bad Rock Fire. So, as you can 
tell, my perspective is probably going to be an emergency 
services perspective.
    I plan to brief you on some of the many successes that 
we've seen as a result of the positive relations with our 
partners at Glacier National Park, I intend to highlight the 
importance of these relations as it relates to the never-ending 
cycle of emergency management, and I also hope to show you the 
value of these relations, the value that these relations build, 
particularly in terms of the management of emergencies and the 
processes that we have developed for emergency management. And 
these incidents go far beyond the response actions that you 
might think of: sending an ambulance or a police car. These are 
much more in-depth than processes and this allows us to work 
together in managing any incident or event or crisis that 
occurs in or out of the park.
    As detailed in my written testimony, the ever-increasing 
number of visitors to our national parks places an increased 
burden on the local emergency services and response agencies, 
particularly in the closest gateway communities. These agencies 
have grown over the years but at a rate commensurate with the 
population growth, permanent population growth, not in step 
with the significant increases in visitors that we are now 
serving.
    In Flathead County, these emergency response agencies in 
the gateway communities and throughout the county are primarily 
all volunteer, unpaid, rural fire departments. The lack of 
growth of these departments can be attributed to the lack of 
increased property ownership, lack of increased property taxes 
and the ever-
decreasing rates of volunteerism we see nationwide. There is no 
improvement in that situation visible on the horizon from our 
view.
    The park is also, arguably, not keeping up with the 
dramatic increase of visitors in terms of their emergency 
services staff. In essence, none of us have grown sufficiently 
to accommodate the needs and demands of these increased 
visitors.
    Glacier National Park, Flathead County Office of Emergency 
Services and all of our emergency response and service agencies 
recognize this limitation and have chosen to seek better 
solutions. The idea that we can and do all work together helps 
us to combine our forces. Our emergency management team, if you 
would, and the collective pool of resources we have work 
together.
    The relationships we have developed allow us to plan and 
use these resources in this resource pool to plan for, respond 
and recover from any incident or emergency we face. The types 
of incidents that we have developed processes to respond to 
range from the minor vehicle collision, minor medical 
emergencies, serious trauma, structural fires, hazmat or 
hazardous materials leaks, search and rescue, wildland fire and 
all the way up to large events like mass casualty incidents, 
the Bakken oil train derailment and possible leak, and 
avalanches which cut off our interstate highway and major rail 
lines. All of these negatively affect tourism and the gateway 
communities.
    The ability to plan for and respond to these incidents is 
rooted on relationships with the park and county agencies that 
have created effective emergency management processes and a 
teamwork approach with the park and the community. I don't have 
a funding solution to the challenges we have.
    The commitment that's been demonstrated from the park and 
the county to protecting these relationships is clearly seen as 
they are designated as ``values of risk.'' And that's what I'd 
like to leave you with today is we, the park, Flathead National 
Forest, Department of Natural Resources and Conservation and 
Flathead County Emergency agencies include these values of risk 
in our delegations of authority when we sign a delegation of 
authority letter and commission incident management teams.
    Those teams consist of the typical Type 3 Incident 
Management Teams which we use on a routine basis. Regional Type 
2 teams we bring in when there's a larger-scale incident, and 
the national Type 1 teams as we brought two teams in this past 
season. The incident management objectives that are outlined in 
those delegations of authority become incident management 
objectives for every single person working on that incident: 
firefighter, police officer, what have you.
    The same needs to be done in the daily standard operating 
procedures of our national parks. The idea that we want to 
protect these relationships needs to be something that's 
regular course of business, not something that's a standout 
that we do only when there's a big fire.
    It is my hope that you have seen the tremendous value in 
these relationships and their results, and we ask you to help 
craft a more formalized mandate for the parks to follow this 
model, this successful model, and encourage support and nurture 
this type of relationship-building and relation maintenance 
with the external gateway community's emergency services.
    None of us can do this alone. We are all in this together, 
and I'm proud of the important work and successes we have 
achieved with Glacier National Park.
    Thank you for your time and thank you for listening.
    [The prepared statement of Mr. Sacca follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. Thank you.
    Before we get into some questions, I think it would just be 
worth noting some of the support staff who are here that makes 
these hearings possible.
    I will start with Rebecca--Rebecca Bonner is a Professional 
Staff Member from the Energy and Natural Resources Committee. 
Raise your hand there, Rebecca. She serves on the Minority 
Staff with Senator Cantwell, who is the Ranking Member of this 
Committee from the State of Washington.
    And then to my right is Michelle Lane, Professional Staff 
Member from the Committee who serves on the Majority Staff 
under Senator Lisa Murkowski of Alaska.
    To my left is Joshua Sizemore. He serves on my legislative 
staff in Washington, DC. He is a native of Billings. So 
Billings is home, but we have him temporarily displaced in 
Washington, DC.
    And then Darla Ripchensky, Chief Clerk from the Energy and 
Natural Resources Committee. So it is great to have you out 
here as well. Thank you.
    So this literally is all the formalities of a U.S. Senate 
hearing, the way it is recorded and so forth. The beauty of 
this is we are in Gardiner, Montana.
    I am going to start with you, Mr. Sholly. If you could get 
the microphone back here.
    Welcome back to Montana. Welcome back to Yellowstone. 
Welcome back to your old school here.
    The question I have for you, in your mind, how do you see 
the relationship between the National Park Service and the 
Gardiner Schools working today and how is that different than 
when you were a student? Can you remember that far back, Cam?
    Mr. Sholly. I'm not sure if I was really thinking about the 
relationship between the park and the school district when I 
was going to school here. It's a great question though.
    From what I understand in my first 24 hours, 36 hours here, 
the park works very closely with the school district. The 
school has produced some amazing graduates--I wasn't talking 
about myself.
    [Laughter.]
    I was--I know this school is regularly ranked not only 
number one in Montana, but it's a top-ranking school in the 
country, too, from a Class C perspective, and that's because of 
the leadership of the school and the commitment of Gardiner and 
the importance that Gardiner puts, and Mammoth, on having a 
great school in a community like this which is absolutely 
essential. So I think we have a good relationship.
    I will tell you that my goal is to continue to ensure that 
that relationship ascends, that we really work on understanding 
better what issues you have, in what ways we can help solve 
some of those issues and, you know, anything that's within our 
legal authority that we have the ability to help you with, we 
will. The school itself, from an executive management 
standpoint, and the park and I can speak for the concessions as 
well and the businesses even here in Gardiner. Our goal is to 
attract the best and the brightest into this community, into 
Mammoth, and the best and the brightest have families and many 
times they'll make a decision if they think that a school, not 
just here but in many places around the country, is not up to 
their satisfaction for one reason or another. They will choose 
not to transfer and that can have a big impact on who we bring 
into these communities and the types of talent that we want and 
need to attract.
    And so, I think we have mutual objectives, mutual goals and 
a mutual commitment to continue working together to elevate and 
improve not only the relationships, but the type of things that 
we work on and the opportunities that we have in the future.
    Senator Daines. It is interesting. The two of you are 
sitting next to each other. I mean, you think of the important 
relationship.
    I remember when we were building our technology company in 
Bozeman, trying to sometimes recruit talent to come to Montana. 
The first question that was asked was, tell me about the 
schools. And that was, oftentimes, a key decision, like to use 
a matrix to come to a place like Gardiner, to Bozeman, 
wherever.
    Mr. Sholly, as you are aware, the Centennial set records 
around the country as it relates to visitation at our parks. 
Here at Yellowstone we continue to see record visitation 
numbers and just when we thought we would not see another 
record, we break that record here in Yellowstone. I know you 
track those numbers. Could you speak to how the increased 
visitor levels that we are seeing here impact the park and 
looking at both in terms of the challenge it presents as well 
as an opportunity?
    Mr. Sholly. Well, I really appreciate that question. It's 
very timely.
    I think we've increased visitation by about 50 million 
people nationally, since 2013 or 2014. We were running on about 
a 270 to 280 million visits per year for a very long time and 
with the buildup to the Centennial and other reasons, we've 
increased substantially in the last four to five years.
    That's not a bad thing, I mean, 330 million people enjoying 
our parks and connected to our parks. As you mentioned, our 
parks represent the very best of America, and they're 
bipartisan. And it's incumbent upon us to make those 
connections, and we've tried to do that very successfully in 
the past.
    There are impacts to that. I would put those in, kind of, 
two different buckets. One, impacts to resources, operations 
and staffing at the park level. And then in another bucket, the 
impacts on, kind of, peripheral impacts on communities and on 
the visitor experience itself.
    On the first bucket, which I think is in my mind, they're 
all priorities but something I'm going to be very heavily 
focused on is the corridors within, say, Yellowstone of my 
peers and around the service we're looking at these same 
things, where we have high-density, high-use, visitor impacts 
on fragile resources or see an increased damage to resources 
because of the visitor use. Those are things that need to be 
addressed immediately.
    And in the short amount of briefings that I've gotten here 
in my first day in the job, I can tell you already, there's a 
considerable amount, and especially in the West Yellowstone to 
Old Faithful corridor, of impacts because of the higher 
visitation levels, not just on visitor impacts, not just on the 
communities, but directly on the resources where people are 
parking their cars, where they're walking on geothermal 
features.
    And so, there are a lot of things that we need to do on 
that front, working with communities, working to come up with 
solutions that make sense. That doesn't necessarily mean 
restricting visitors, but as far as things that we can do to 
prevent that damage and those impacts, we need to line those 
out and work to execute them.
    Forty percent more visitation in the last 10 years in 
Yellowstone. And I haven't looked at these numbers in my first 
day here too much, but when you look at the numbers across the 
service, you see--when adjusted for inflation, some flat 
budgets--you see similar or eroding staffing levels. And so, 
you've got an increase in Yellowstone at 40 percent. You've got 
similar staffing. That's a stressor on our ability to manage 
the visitations. That's something that we look at.
    And then I heard an anecdotal story yesterday about 
visitation, or cars backing up at West Yellowstone all the way 
into town. And so, there's a lot we need to do from the 
standpoint of how efficient we are, do we have the right 
entrance framework, whether that be a west or here in Gardiner 
or anywhere else. And then once visitors are in the park, are 
they--are we doing what we need to do to manage that traffic 
flow, to manage that experience and do it in a way where they 
can enjoy these incredible resources, but we're also protecting 
them at the same time.
    Senator Daines. Thank you, Cam.
    I know we have had some good hearings in Washington looking 
at how technology might help us as well in terms of trying to 
smooth out some of the crowding issues we are seeing at times, 
so I think there will be more to come on that as we think about 
the future.
    Ms. Baltzley, first I want to congratulate you and Gardiner 
for achieving the ranking as top school in Montana, not only in 
Montana, but having the national recognition, and I think your 
own credentialing of your experiences in Virginia and Maryland 
and seeing what is out here. I know sometimes out here in 
Montana people think that we are not quite as smart as they are 
back east.
    Ms. Baltzley. That's right.
    Senator Daines. But we prove them wrong most of the time, 
don't we?
    Ms. Baltzley. We do.
    Senator Daines. Yes.
    Ms. Baltzley. The staff here is incredible.
    Senator Daines. Yes, exactly.
    Your testimony mentioned that enrollment in the school has 
fallen below 200 students for the first time in decades. As I 
travel around the state--I get to all 56 counties every two 
years--the plight of the Class C schools around Montana is 
very, very troubling. You attribute this to a variety of 
factors. Would you like to elaborate on what you feel is 
causing enrollment to decrease? You talked about it a bit in 
your testimony, but maybe you could elaborate further. And 
what, if anything, could be done to get enrollment back up in 
Gardiner in the coming years?
    Ms. Baltzley. Well some of it, you would assume, would be a 
natural ebb and flow of trends, as most school districts see, 
but this is such a dramatic drop that when we take a look at 
what's happening, we realize that our housing issue is probably 
at the root of--it's probably the largest cause of what's our 
declining enrollment.
    Although there are still employees who are working in the 
park for both either the National Park Service or for Xanterra, 
some of those employees are coming from Livingston, so they're 
no longer living in the Gardiner area because either they can't 
afford the housing that is here or there isn't housing 
available.
    So over the past, I've lived here since 2010 and we've 
noticed a dramatic shift and I think it was even occurring 
before that. When houses go up they're often bought at a huge 
price that may be investment, investors, et cetera, are able to 
afford and are changed into vacation rentals. They often then 
are used from May to October and then they may sit empty, some 
of them sit empty, or we even have in-seasonal employee housing 
for which the houses also sit empty during our school year.
    So we have young families who cannot afford to buy houses 
here in Gardiner or there's not even rentals available for 
them, affordable rentals, that they can come and purchase. So 
consequently they move up the valley, as we say, and they are 
beyond a point of rocks which is, where 89 crosses Yellowstone, 
our Gardiner boundary and a lot of our families are moving out 
to the Emigrant area or north of there. And, consequently, they 
have a choice: they can either continue to send their students 
here to Gardiner as out-of-district students, or they can go to 
Livingston. I think both choices are made. We have about 35, I 
think, families right now who are, choose to continue to send 
their students to Gardiner. A lot of the reasons are they're 
coming from Emigrant and their employment is in the National 
Park Service. So, consequently, that has a huge impact on our 
enrollment.
    As far as what we can do. There are several community 
groups that have been working on this housing situation, and 
we've been working to see whether or not there are places that 
we might be able to support some development of affordable 
housing. Well, just like West Yellowstone was talking, we're 
landlocked. We can't find those places because we have national 
lands. We've got state forest lands, et cetera. And so, 
consequently, we're not able to find the property in order to 
be able to work with some of the agencies to help us with that 
affordable housing.
    Senator Daines. Yes, interesting.
    Ms. Purvis talked about the national forest, talking about 
maybe some land for you all because you're landlocked as well, 
right? You are surrounded--just thinking about what we need to 
do here----
    Ms. Baltzley. Right.
    Senator Daines. ----as we grow and you have a 40 percent 
increase in visitation----
    Ms. Baltzley. Right.
    Senator Daines. ----over a period of 10 years.
    Ms. Baltzley. Right.
    Senator Daines. Something has got to give here, it seems 
like.
    Ms. Baltzley. Right.
    And we look to, you know, maintaining that same quality----
    Senator Daines. Yes.
    Ms. Baltzley. ----of education that we've been able to do, 
that has given us that ranking of number one, et cetera. And we 
do need to be able to figure out a way in order to have our, 
yeah, our teachers, which is another piece.
    Senator Daines. Right.
    Ms. Baltzley. Is, you know, you asked about declining 
enrollment but even when we do have new teachers the first 
question is, we did a little reconnaissance before we came and 
we're not going to be able to afford housing here.
    Senator Daines. Yes.
    I want to follow up on another question and get into some 
details about the funding for the Gardiner Schools. You talked 
about that a bit in your testimony. You mentioned the school 
used to receive funding directly from the National Park Service 
for students who attended school in Gardiner. I remember that 
distinctly.
    Ms. Baltzley. Yes, thank you very much for helping us.
    Senator Daines. I think I was going through the National 
Park budgets, and the issue was revealed.
    Ms. Baltzley. Right.
    Senator Daines. And that line item has now been replaced 
with a payment from the State of Wyoming. I remember hearing 
about it when I was in the House, and we were working with the 
Wyoming delegation to protect prior year payments because that 
was also an issue regarding the arrears piece.
    Ms. Baltzley. Correct.
    Senator Daines. That would have been devastating, if I----
    Ms. Baltzley. $8 million.
    Senator Daines. Yes, and to assure the school was made 
whole.
    How is this updated arrangement working for you all? I 
would like to hear more about that.
    Ms. Baltzley. Well, we've had to adjust and you heard that 
this past year was very dramatic in our adjustments because we 
did have, you know, with the confluence of things that have 
been going on since that money, which was not earmarked in 
our--did not need to be earmarked in our general fund budget, 
which then allowed us to use it for some things over and beyond 
what we, a Class C, might typically have been able to use. When 
that money was no longer coming to us and the Wyoming payment 
came in, working with the State of Montana, that money now 
needed to go directly into our general fund which then offset 
what Montana was paying for us, paying us.
    So now, we only--the only pieces that we have coming in, 
for the most part, are in our general fund which is spent every 
year and we are not able to add to our reserves as much as we 
have been in the past, which then creates an issue of when we 
have major factors like what I described with our 
infrastructure maintenance with having to replace an aging 
roof. It had to be replaced. We have three boilers of which 
one, the oldest, is the only functioning one. Those kinds of 
things take down from our reserves. They're not budgeted into 
our general funds.
    So we do receive impact aid. We also receive REAP money 
which is, I think, they----
    Senator Daines. By the way, Ms. Baltzley, on the impact 
aid, you mentioned the formula issue----
    Ms. Baltzley. Yeah.
    Senator Daines. ----there, about where the employees 
actually were working, where the offices were----
    Ms. Baltzley. Correct.
    Senator Daines. ----and all that, then some that did not 
qualify for impact aid.
    Ms. Baltzley. Correct. Right.
    Senator Daines. We have staff here who took notes quickly, 
as I did as well. We want to go back and look at that----
    Ms. Baltzley. Great.
    Senator Daines. ----to see if there is something there that 
could be changed in just an administrative rule issue. Is that 
a law issue? We are going to go investigate that, yes----
    Ms. Baltzley. Well, thank you because that is a challenge.
    Senator Daines. Yes.
    Ms. Baltzley. Because so many of the people living in the 
community actually work in the park, but their offices--they 
could be guides.
    Senator Daines. Right.
    Ms. Baltzley. They could be independent contractors.
    Senator Daines. Yes, we will take that as a follow-up item 
here, too, to see if there is something we can do there.
    Ms. Baltzley. Great, thank you.
    Senator Daines. Because I think we are violating the 
principle and the spirit of what is trying to be done on the 
algebra there.
    Ms. Baltzley. Great, thank you.
    Senator Daines. The formula needs to be adjusted, best I 
can tell, first look.
    Ms. Baltzley. Thank you.
    Senator Daines. Yes.
    Ms. Baltzley. So consequently, our funding has changed. And 
so, we're trying to, and especially the Board of Trustees, 
being the stewards of the money, is trying to act responsibly 
and trying to be able to take care of our aging infrastructure, 
be able to appropriately use our budget without going over, 
without dipping into reserves more than we need to because 
those reserves are needed for some of the things that are one-
time costs, et cetera.
    Consequently, it's been a change in the way that we do 
business and that has impacted our programs of education. We've 
eliminated some of our academic programs. More of our students 
are taking online courses because we don't have the staff in 
order to have direct programs for those students.
    Senator Daines. Thank you.
    I am going to move to Mr. Sacca here for a minute.
    You described this close, cooperative relationship with the 
National Park Service, U.S. Forest Service, other federal 
partners. Would you describe your relationship with the Park 
Service as generally positive? And what, if anything, could be 
done to improve that relationship with the service and other 
federal partners for that matter?
    Mr. Sacca. I believe that Flathead County and our 
relationship with Glacier National Park is truly outstanding. 
It's to be commended that they're so willing to be good 
partners. We enjoy the same level of partnership with the Park, 
the Forest Service, DNRC and the County.
    It was really started, just a couple of people that knew 
each other, myself and the Chief Ranger, we work next door to 
each other. We live next door in the park and when our jobs 
took us in different directions, he stayed in the park and I 
went to the county, we maintained that relation and continued 
to build that.
    That was quickly capitalized and actually championed by the 
superintendent and then our commissioners at the county level. 
They actually recognized the value in that. That allowed it to 
flourish and happen beyond just the two guys that knew each 
other to all of our offices working cooperatively in that 
spirit of cooperation which now is championed by the 
superintendent and by the county commissioners. That's the 
value of what we found.
    Senator Daines. Thank you.
    Ms. Purvis, how are the wastewater and the water 
improvements currently paid for?
    Ms. Purvis. Wastewater is not currently paid for. Our water 
improvements--we built a new water system in 2011, $2.2 
million, made up of a combination of grants and low interest 
loans.
    People in the community right now pay, we fund that with a 
system called EDU, which is an estimated daily usage. Each unit 
is $32.17. It's, kind of, an arbitrary assignment. Restaurants 
are assigned 1.5 EDUs. So I have a cafe there. Our water bill 
is like $46 a month. The hotels are hit very hard. They pay 1 
EDU, plus 0.5 EDU for every room that they have. So some of 
them are paying $700 and $800 a month for water. Residents pay 
$32.17. We are looking now at moving to a different rate 
structure based on usage. Restaurants, unhappily for me, are 
going to be paying considerably more. Hotels will be paying 
less, I believe.
    Senator Daines. What alternative funding models do you 
think need to be explored?
    Ms. Purvis. I'm at a disadvantage here. I'm a psychiatric 
nurse and a restaurant owner, and I don't even know what the 
options are.
    You know, we have a population based on the recent Census 
Bureau of 2015. I'm not sure it's entirely accurate, but they 
had said we had 35 year-round residents with a median household 
income of $38,500. So the community cannot afford to do this on 
their own.
    Senator Daines. Any kind of thoughts, perhaps, on whether 
it is a user fee where visitors would be able to contribute to 
that as well, or just thinking out loud here of ideas to try to 
generate revenue to cover some of these things?
    Ms. Purvis. Sure. And we have our three percent resort tax. 
That generates about $170,000 a year in Cooke City.
    Senator Daines. Yes.
    Ms. Purvis. But in January, it's an interesting meeting 
when people fight for their share of the pie. The local option 
tax that Park County Commissioners and Erica talked about would 
be, I think, useful for us, so that just the gateway 
communities could charge that tax for visitors who come 
through.
    Senator Daines. I have to believe that somebody who gets to 
your part of the neighborhood here often, Silver Gate and Cooke 
City, especially in August. You talk about those peak-use 
months in August. How does that compare to what you see in 
January and February when it turns into more of a snowmobiling, 
cross-country skiing, backcountry skiing, kind of economy?
    Ms. Purvis. That's a really nice time of recovery for many 
of our septic systems. The numbers are not nearly as high. I 
don't have the specific figures for you.
    Senator Daines. Ms. Costello, my question for you is a 
little more general in terms of the habits of visitors to 
Yellowstone National Park. Are you able to capture how many 
tourists stop at local businesses versus those who drive 
straight through to the Park?
    Ms. Costello. Well, when I consider that question I can 
really start to think of maybe a way of trying to understand 
that. But I don't believe, I know we do not have a way of 
capturing that at this point in time because we would not know 
if a visitor, for instance, stopped at the far side of town and 
had breakfast before they went through the gate.
    So all of those sorts of things would be very difficult for 
us to really know. We obviously know that West Yellowstone is 
the most popular gateway to Yellowstone, and I'm sure much of 
that is because we're closest to California. But also--well, 
it's true. But the other part of that would be just if, you 
know, we have a couple of highways, three highways and so, it 
makes a busy place. And no, we do not know that figure.
    Senator Daines. As you work with the businesses there in 
the Chamber and so forth that you interact with, do you have 
any strategies for the businesses? I mean, how do they increase 
their revenue there to get tourists to stop in West Yellowstone 
before they enter the park and spend some of their money?
    Ms. Costello. We spend a considerable amount. West 
Yellowstone is one of the funded communities for bed tax in 
Montana. There's a whole formula, but West Yellowstone is 
fortunate to have that. And then we also have the West 
Yellowstone Tourism Business Improvement District. Both of 
those fund a considerable amount for our small community, a 
considerable amount of marketing and advertising that we do. 
And that strategy is reviewed and gone over annually to see 
which ways, what more we could do.
    One of the things that we like and are excited about are 
the additional activities and attractions that are beginning to 
appear in our area, because I do believe it helps take some of 
the pressure off the gate because people will come and do other 
things as well.
    For instance, the Adventure Park with ziplines and the 
Grizzly and Wolf Discovery Center are in the process of this 
early into the next tourism season will be opening their 
riparian habitat which will have otters and lots of types of 
fish of the area. And we see that as being a tremendous 
attraction as well. So the more of those things that we can do.
    We also send people on tours all over the area. Of course, 
always bringing them back to West Yellowstone, I might add. But 
we send them on loop tours that bring them back but encourage 
them to visit those things that are wonderful places but 
additional to Yellowstone--Mesa Falls, the Earthquake Visitor 
Center, all of those.
    Senator Daines. Thank you.
    Mr. Sacca, your testimony mentions that the local emergency 
response agencies of Flathead County are primarily funded 
through resident property tax levies and most first responders 
in the area are either all volunteer or partial volunteer. I 
know this can put a strain on your resources in terms of time 
and people, particularly in the peak fire and the peak tourism 
season when it all happens, usually at the same time. Could you 
describe the type of fiscal impacts this has on your local 
budget and what ideas you might have that could be better 
appropriated in the future?
    Mr. Sacca. Well, sir, when we have the large fire season or 
large other types of incidents that exceed four hours, the 
response takes a long time. There's a funding mechanism that's 
in place. There's agreements between the Forest Service, the 
county, the park and DNRC and have standardized rates that we 
can use for that.
    But anything that's less than four hours is considered 
mutual aid, the Good Neighbor Policy, and we just go and do it. 
And the vast, vast majority of those responses that are related 
to tourism directly, are those one and two and three hour 
responses, somebody has a medical emergency, a vehicle 
accident, a vehicle fire and things of that nature.
    There is no funding mechanism that exists right now, that 
we're aware of, and that puts a huge strain on us because 
that's the bread and butter of what we do. We have some 
departments that go out several times a day. For a rural 
department with just six members, that's a tremendous burden on 
them and their families.
    On some of the larger departments, where we send out 10, 
12, 15 calls per day and none of it's being reimbursed, but yet 
it's all in support of somebody else's jurisdiction, that takes 
a tremendous financial burden on those.
    Then those finances, or financial burdens, some of it is 
salary. Three of our 20 departments have a full-time pay 
structure, just 3, where the 17 others are 100 percent 
volunteer. They're not funded at all.
    So there is no money coming in there, but we're still 
consuming resources. We're still using things to clean up the 
spill from the vehicle accident and medical supplies and things 
like that on every single call that we do. We're putting wear 
and tear on all of our vehicles and ambulances and fire trucks, 
and we're consuming fuel, another huge expense. None of that is 
reimbursed.
    So for the big incidents, yes, there's clearly a funding 
mechanism and there's 100 percent reimbursement, and those 
multi-day events and these strike teams and task forces that we 
send to respond to fires, 100 percent is being reimbursed. But 
all of the small ones are the ones that are really doing the 
damage to us.
    Senator Daines. So it is my understanding the task force is 
paid for services. I guess the question is going to be, do you 
think you are receiving fair market value?
    Mr. Sacca. Yes, sir, I think we do.
    For example, the task force that I led this summer to go in 
and respond into Glacier National Park based on a phone call, a 
911 call from the park, to bring what's called a wildland 
structure protection task force. It's about 26 people, about 13 
vehicles, and we go into the park to help them protect the Lake 
McDonald Ranger Station. Every single gallon of fuel, every man 
hour for the employees that went, and the daily usage rate or 
hourly usage rate for those vehicles, all were part of a 
formula that's been agreed upon, an existing agreement through 
DNRC. The DNRC rates are reviewed and updated every single 
year, so all of us, all of our partners, feel that that's an 
accurate and fair rate for reimbursement.
    Senator Daines. Okay, thank you.
    Ms. Baltzley, I want to come back to something that you 
said in your testimony. You mentioned the Gardiner Schools had 
to reduce, I think, 7.5 FTEs in order to balance the budget.
    I have to applaud you, first of all, in balancing a budget. 
DC hasn't figured that out yet. But in terms of keeping 
Gardiner's reputation as one of the top schools in the state, I 
mean, I think about when we were raising our children, that 
would be a very attractive thing to think about, bringing your 
kids here to one of the top schools in the state, not to 
mention the nation. But can you speak to what it means to the 
students and staff here when you have to reduce 7.5 FTEs out 
of--what's the total FTE count?
    Ms. Baltzley. Nineteen teachers and then a staff that 
includes another 7 or 8, so close to 30.
    Senator Daines. Right.
    I mean that is 7.5 and the absolute is one thing, but when 
you look at it in terms of about a quarter----
    Ms. Baltzley. Correct.
    Senator Daines. ----of your entire staff.
    Ms. Baltzley. Correct.
    Senator Daines. Having spent a lot of years managing 
businesses, a 20 to 25 percent kind of reduction in force is 
huge. Maybe you could talk about what that means to the 
students and staff here?
    Ms. Baltzley. It's been--I'm not sure the students have 
noticed as much because of the staff that we have, a lot of 
them have stepped up and taken on commitments. For example, 
even our administration, we reduced the athletic director, so 
now the principal and the superintendent split the athletic 
director position, so, things like that. So a lot of the staff 
have stepped up to the plate and picked up some of those 
pieces.
    The Board of Trustees has been calling this a Phase Two, is 
what's going to happen this year. Phase One was addressing the 
budget issues. Phase Two was addressing what we're calling the 
new normal. And the new normal is we have to take this as an 
opportunity of taking a look at our programs and saying, what 
do our students need for their future? So how are we going to 
rework what we currently have, knowing the staff that we have, 
and try and figure out a different way of keeping that quality 
education program.
    We also have a new educational foundation, the North 
Yellowstone Educational Foundation, that has started with 
their--put together an organization that is a non-profit--
that's an organization to help us meet some of the needs that 
are over and beyond what would be our normal educational needs. 
For example, they funded a position that is going to help us 
make those connections with Yellowstone in an educational way 
because our students benefit from being in this area and having 
a unique opportunity to explore things that they wouldn't have 
other places. So they are helping us fund a position in order 
to coordinate that. They're also working on some other 
opportunities to be able to support professional development 
for teachers that we can't afford in our general budget. We 
need to have our teachers have that training.
    So we're trying to do other things outside of our general 
fund that we might be able to do that. We've just set up our 
committees at our last board meeting that are looking at our 
academic program. We're looking at the housing situation. We're 
looking at the future strategic planning as it relates. So this 
is our year of work toward that. We will involve the staff in 
order to help us. They're always on our committees. And so, how 
can we best utilize the resources that we currently have here 
now?
    Senator Daines. Thank you. Thoughtful answer.
    I have a question here I am going to open up to the entire 
panel, kind of go round robin here, as we wrap up.
    We have talked a lot today about some of the challenges we 
see in our gateway communities, but it also sounds like there 
are some success stories out there as well. Sometimes it is 
nice to end on a higher note, too, as we also look at the 
challenges. I would like to hear from each of you if you have 
ideas for solutions that could come from either a federal, 
state, local government, maybe something you have seen already 
work that we should continue to explore further.
    We have spent some time working with the Congressional 
Research Services as it relates to things like wastewater. Ms. 
Purvis, for example, like what federal grant programs are out 
there for small, rural communities that have scale problems but 
don't have a source of tax revenue, particularly in tourism 
type towns.
    So that is the question, what solutions come to mind, 
federal, state or local government or private sector? You 
talked a little bit about some of the foundations, perhaps, 
that are out there, philanthropic causes to help out in 
education or some combination thereof to help address the 
issues we are talking about here today.
    I will also let whoever has an idea to start off. It looks 
like the Superintendent is ready to say something. Cam?
    Mr. Sholly. Well, I really appreciate that question. I 
think that you can look at this gateway arch project right out 
here that was completed here recently, which really helped 
improve traffic flows, pedestrian safety. It accomplished a lot 
of objectives and I think it was a terrific partnership with 
the community of Gardiner.
    The leveraging of private dollars, as you know, working 
with Senator Blunt, we just completed the largest public-
private partnership in the Gateway Arch in St. Louis where we 
really leveraged, effectively, philanthropic dollars with some 
federal dollars and local tax dollars in order to achieve 
something incredible.
    I think for us there are areas in which we can work with 
federal dollars, legally, and have positive impacts on our 
gateway communities by the things that we do within the 
boundary. There are many things we can share--responsibilities 
for that have joint benefits both in the communities and within 
the park.
    Our Yellowstone Forever group has done a tremendous job in 
Yellowstone raising private dollars for an incredible amount of 
projects within the park, but also things that support efforts 
outside of the park.
    So I think it's really about, do we have an inventory, do 
we recognize where some of those opportunities exist and then 
how do we best leverage our resources, either appropriated 
dollars, community dollars, philanthropic dollars, to get the 
results that we need and make sure those dollars are invested 
in the right places.
    Senator Daines. Thank you.
    Ms. Baltzley. Kind of tagging in on that collaboration 
piece, I think that's an extremely important piece for the 
entities that do work in these gateway communities to be able 
to work together.
    Specifically, we really need support for our housing 
solution. And since we're--land is our constraint, that's 
probably a place where the national and state agencies might be 
able to support just, you know, possibly some of the things 
that were done with the Cooke City issue. We might also be able 
to tag into that opportunity because we don't have anyplace to 
build housing. There's no land available.
    The general support for education, you know, not reducing 
the general educational budget, especially as it relates to the 
aging infrastructures. I know that Gardiner is not the only 
school district, having worked in a lot of school districts and 
even our neighboring school districts, that is an issue. So if 
there's anything from a national perspective that could be done 
from an aging infrastructure of our school buildings, I think 
that's an important aspect.
    Senator Daines. Ms. Baltzley, it seems like we keep 
circling around this housing issue.
    Ms. Baltzley. Yeah.
    Senator Daines. It seems just critical right now.
    Ms. Baltzley. Right.
    Senator Daines. And as you talked about strategic 
planning----
    Ms. Baltzley. Correct.
    Senator Daines. ----that you are starting to do here with 
your board. Is there, and this is maybe outside the realm of 
your responsibility, you probably have a view on it or know 
about it, just the community of Gardiner, per se. Are they 
looking at long-term master plans here on housing and where 
this all goes?
    Ms. Baltzley. We have been.
    I joined the community in 2012 and there was already--there 
was an organization that was out there called the Greater 
Gardiner Community Council and it was an opportunity for, 
because we're unincorporated there is no--where do you go for 
grants? Who is going to get grants on behalf of the community? 
How are we going to make decisions?
    That's still a question. There's a current community group 
that is just starting some work that's called Gardiner, A 
Successful Community. It's looking at addressing the big issues 
that face us as a gateway community where we do rely on our 
tourism businesses to be a dynamic, economic community but that 
comes at a price.
    And how do we remain a dynamic community so that we're not 
just a tourism community that then shuts its doors when the 
season is over and, I mean, you probably noticed if you are 
staying here, a lot of our restaurants are now closing and it's 
a little bit different.
    We've been working with some of our area groups, the HRDC 
out of Bozeman, et cetera, have been part of that organization 
where they actually, over the past several years, have been 
working on, can we get some developers in here in order to be 
able to help us support affordable housing? We get them in 
here, there's no land. So it circles back to that land issue 
all the while.
    So, yes, this community is extremely dedicated to trying to 
make sure that Gardiner remains that dynamic community of 
people that really want to live here and want to be able to 
maintain the excellence in all things, not only our schools, 
but in everything else. There are organizations that are out 
there, and this will probably be a big year of some decisions.
    There was a recent article in the Livingston Enterprise 
that a survey was done before the gateway project and housing 
was a big issue. Then they were able to come back, I think it 
was the University of Montana that also did the survey, came 
back this past summer, did another survey. Same exact things 
and that was five years ago and more intense about the housing 
issues and how do we solve that.
    Senator Daines. Well, having grown up in Bozeman since 1964 
and growing up in the construction business there, Mom and Dad 
were in the home building business, I watched that, certainly, 
what Bozeman did when it was 13,000 people when I was going to 
kindergarten there at Longfellow.
    It is something I know Cam will be looking at as well. I 
mean, the partnership here between Gardiner and Yellowstone 
National Park around thinking about this landlocked situation 
which might require some Congressional action to work with 
everyone here to probably have some, I am sure who owns the 
deeds around the town here probably might involve our neck of 
the woods here in Washington, DC, to see what we can do here to 
try to figure something out here too.
    Ms. Baltzley. Thank you.
    Senator Daines. Thank you.
    Ms. Costello. Well, I was thinking that about a couple of 
things. One is going back to the idea of being landlocked and 
I, because I don't remember exactly how this occurred 
initially, but West Yellowstone was recently able to purchase 
80 acres from the Forest Service directly. But that was 
included in some legislation that allowed for that.
    Is that a possibility for other areas that are exactly in 
exactly the same situation because that might, indeed, be a 
solution?
    Senator Daines. You are living on islands here, if you 
think about the ownership, right? We have to figure something 
out.
    Ms. Costello. Right.
    Senator Daines. Because this is, I mean, just projecting 
this out 10, 20, 30, 40 years--at some point, I mean, the 
crisis is here now. It is only going to get worse.
    Ms. Costello. Right.
    Senator Daines. We are going to start thinking about that 
longer-term, perhaps.
    Yes?
    Ms. Costello. And West Yellowstone is in the process, has 
received a grant to do some study that will help, hopefully, 
with the park entrance, the whole situation as well. So that's 
one thing that West Yellowstone is doing.
    We're also, of course, where is the topic of housing not? 
Nowhere. It's everywhere.
    And so, I don't know, I was just reflecting on the fact 
that when Superintendent Wink was here he changed the 
conversation from numbers of snowmobiles in the wintertime to 
sound. It changed the whole viewpoint, sound, sound events.
    Maybe we're all locked into just looking at it one way and 
we need a voice that will change that conversation so that we 
do see another solution. Isn't there a line over here? Open 
your mind before your mouth. So I think we're going to have to 
have really, really open minds about a solution to this because 
from the projects in big cities to wherever you are, it's been 
tough.
    Ms. Purvis. Well, I'd just like to echo what you're saying 
about collaboration and partnerships and opening our minds. 
We've been very fortunate to find an ombudsman in DEQ who has 
been actually helping us look for solutions rather than just 
tell us, ``no, you can't do that,'' ``no, you can't do that'' 
and ``no, you can't do that.''
    I think that would be incredibly helpful. We're addressing, 
well, we're not addressing, but we're suffering from the 
housing issue as well and attracting employees because we have 
no place to put them. And it's easy in Cooke City, as we're so 
isolated, to feel isolated as well, as we're trying to address 
these problems.
    It would be really wonderful to be able to bring these 
resources together and work with a problem-solving mindset as 
opposed to the regulations and what we can't do.
    Senator Daines. Great, thank you.
    Mr. Sacca. I know it sounds, kind of, just common sense, 
but one of the things that we can do is really work on just 
maintaining those close and cooperative relationships. I know 
that it sounds hokey, but realistically if we have good, 
quality relations that we're cooperating and we're 
communicating on all issues, not just when the bad day occurs 
and we have an emergency or when we have crises that we need to 
address. A good relation is going to help facilitate finding 
and implementing the solutions that we need. Bad relations 
could easily derail any type of improvement that we want to do. 
So what do we need to do? And how can we do that?
    Setting the tone at the top, whether that's the Director of 
the Forest Service or the Director of the NPS setting the tone, 
saying that quality relations are values at risk that need to 
be nurtured and maintained. That trickles down to the Forest 
Service, the state DNRC. We see the success of that in Flathead 
County with our agency heads of those two agencies, DNRC and 
the Forest Service, and the Superintendent of the National 
Park.
    Seeing this as a value at risk and understanding that it 
needs to be maintained and nurtured, that leadership, if they 
would continue to champion and protect those relationships with 
all of the emergency services, but also all the stakeholders 
and all the cooperators, that's what we need. And we need to 
set the tone at the top.
    Senator Daines. Well, that is a good way to close on the 
last word, I think. I appreciate that.
    We are going to conclude, and I especially want to thank 
the witnesses for your time here today, for your testimony 
today, for your thoughtful comments. I found it very, very 
enlightening. I appreciate it very much.
    This hearing record will be open for two weeks.
    This hearing is now adjourned.
    [Whereupon, at 12:35 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
